           REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
NORTHEAST AND CARIBBEAN REGION
REPORT NUMBER A050009/T/2/Z05024

          MAY 18, 2005
Results of Audit

We determined the Region 2 CSC to not be fully compliant but making significant
progress.      The Region has implemented national controls identified in the
Administrator’s “Get it Right” Plan, and has enhanced regional controls, while improving
its overall contracting practices compared with our past audit findings. For example, we
did not find any instances of non-compliance with the competition requirements of
Section 803 of the National Defense Authorization Act for Fiscal Year 2002. However,
we did find 2 new orders that had procurement compliance deficiencies, although there
was no identified potential financial impact. In our review of 2 existing orders, we found
that both had prior deficiencies that had inadequate remediation progress.

As directed in the Ronald Reagan National Defense Authorization Act for Fiscal Year
2005, because the CSC is not fully compliant, we are required to perform a subsequent
audit of CSC contracting practices by March 2006 to determine whether the CSC has
become compliant.

Procurement Compliance Deficiencies with No Identified Potential Financial Impact The
CSC awarded a $48,000 open market order for the purchase of 6 Antenna Low Noise
Amplifier retrofit kits, on a sole-source basis, to a contractor that retained proprietary
rights to both the drawing designs and an interoperable part. The Justification for Award
(JFA) incorporated the client’s Independent Government Cost Estimate (IGCE), which
compared the sole-source quote to open market pricing for two other vendors, one of
whom had prepared the original drawings for the kits and the other had been the ship-to
party on a previous order for the kits. The task order file did not include supporting
documentation for these quotes, and we found it improbable that the other two vendors
could have provided the retrofit kits. Although the Contracting Officer’s price
reasonableness determination was also based on previous procurements by another
CSC, we were concerned that the IGCE was reflective of our past audit finding that the
CSC frequently incorporated client estimates into the JFA for large services task orders,
without establishing the validity of the amounts. The CSC recently took a positive step
toward improvement by issuing an ICGE Guidance Procurement Bulletin.

Under an Indefinite Delivery, Indefinite Quantity contract, the CSC awarded an order for
shipping support, fielding support and system engineering and training support needed
to maintain Single Shelter Switches, Joint Network Nodes and Base Band Nodes. The
order was awarded at a $536,585 Not To Exceed price proposed by the contractor,
subject to renegotiation after the CSC provides a more detailed and defined scope of
work with a Request for Proposal. The order document, dated September 10, 2004,
stated that the contractor would submit a proposal no later than October 26, 2004, at
which time the NTE cost would be renegotiated. As of March 22, 2005, this still had not
occurred.




                                          2
Inadequate Remediation Progress Concerning Existing Orders With Prior Deficiencies
While discussions had been underway between the client agency, CSC officials and
Regional Counsel, no firm remediation plan was in place to address audit findings
covering an existing order related to the relocation of the client from leased space. One
finding involved the CSC’s use of an incorrect IGCE to determine the price
reasonableness of a $32 million Video Conferencing Seat Management contract line
item. After the conclusion of fieldwork, the CSC issued a modification to extend the
period of performance until June 15, 2005, with the intention of turning future contract
actions over to the client agency from that date on forward.

We determined that the CSC had not yet incorporated revised invoicing provisions into
an existing order for a Secure Wireless LAN project. We reviewed recent invoices and
found that they still lacked basic information needed to evaluate billed charges.


Conclusion

While not fully compliant, we found that the Northeast and Caribbean Region CSC has
made significant progress in implementing controls to ensure compliance with
procurement regulations. The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and has enhanced regional controls, while improving
its overall contracting practices. However, we did find procurement compliance
deficiencies in 2 new orders, with no identified potential financial impact, and 2 existing
orders, with prior deficiencies, had inadequate remediation progress. As stated in the
January 2004 report on the FTS CSCs, we believe that steps to remedy the CSC
procurement problems require a comprehensive, broad-based strategy that focuses on
the structure, operations and mission of FTS, as well as the control environment.
Based on the comprehensive recommendations contained in that report, no further
overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS Regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. In her May 5, 2005 response, included as
an Attachment to this report, the Regional Administrator generally agreed with the audit
findings, with the exception of Task Order 02FM214555. The Region was not in
complete agreement with our concern that the IGCE for that order was reflective of past
audit findings that the CSC frequently incorporated client estimates into the JFA, without
establishing the validity of the amounts. The response stated that the Contracting
Officer did not solely rely on the client submitted quotes and used other price analysis
techniques for purposes of determining price reasonableness. The audit report had
acknowledged that the Contracting Officer’s price reasonableness determination took
into consideration similar procurements by another CSC. Our concern over the IGCE



                                            3
4
                      ATTACHMENT 1
MANAGEMENT RESPONSE
P 2 OF 2                         ATTACHMENT 1
           MANAGEMENT RESPONSE
                                                              ATTACHMENT 2


                                 REVIEW OF
                       FEDERAL TECHNOLOGY SERVICE’S
                          CLIENT SUPPORT CENTER
                     CONTROLS AND TESTING OF CONTROLS
                      NORTHEAST AND CARIBBEAN REGION
                      REPORT NUMBER A050009/T/2/Z05024

                               REPORT DISTRIBUTION

                                                                    COPIES

Acting Commissioner, Federal Technology Service (T)                      3

Regional Administrator, Northeast and Caribbean Region (2A)              3

Assistant Inspector General for Auditing (JA & JAO)                      2

Regional Inspector General for Investigations (JI-2)                     1
